               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




           First-Class Mail on Air
      Transportation — Assignment by
                   Weight

                       Audit Report




                                         September 28, 2012

Report Number NL-AR-12-010
                                                                   September 28, 2012

                                                             First-Class Mail on Air
                                            Transportation — Assignment by Weight

                                                         Report Number NL-AR-12-010



BACKGROUND:
The U.S. Postal Service contracts with       service if this mail was reallocated,
select air carriers to transport             resulting in less volume for commercial
First-Class Mail (FCM) in order to meet      carriers and overall reduced air
established service standards. The           transportation costs. We determined this
carriers include FedEx®, United Parcel       occurred because Postal Service did not
Service® (UPS), and selected                 consider weight of the mail as a priority
commercial passenger airlines. FedEx         in the assignment process. We
charges to transport mail by cubic foot      determined the Postal Service has an
while UPS and commercial passenger           opportunity to save about $10 million in
airlines charge by the pound.                transportation costs over the next year
                                             by assigning FCM to air transportation
The Postal Service assigns mail to           considering weight.
carriers in the following order: UPS,
commercial passenger airlines, and           WHAT THE OIG RECOMMENDED:
FedEx. The process considers contract        We recommended the vice president,
minimums and the per pound costs of          Network Operations, modify the process
commercial air as a priority when            to assign FCM to air transportation
determining the order in which mail is       considering weight where feasible, with
assigned, but does not consider the          the heavier mail being assigned to
overall weight or density of the mail.       FedEx and the lighter mail being
The Postal Service spent $488 million in     assigned to UPS and commercial
fiscal year 2011 to ship FCM by air.         passenger air carriers.
Our objective was to assess FCM
assignments to air transportation by         Link to review the entire report
container weight.

WHAT THE OIG FOUND:
The Postal Service can assign some
FCM to air transportation in a more
cost-effective manner. If weight was
considered, heavier weighted trays and
tubs of mail could be assigned to
FedEx, with lighter trays and tubs
assigned to UPS and commercial
passenger air carriers. Our analysis also
showed that the Postal Service could
maintain contract commitments and
September 28, 2012


MEMORANDUM FOR:            DAVID E. WILLIAMS, JR.
                           VICE PRESIDENT, NETWORK OPERATIONS




FROM:                      Robert J. Batta
                           Deputy Assistant Inspector General
                            for Mission Operations

SUBJECT:                   Audit Report – First-Class Mail on Air Transportation —
                           Assignment by Weight
                           (Report Number NL-AR-12-010)

This report presents the results of our audit of First-Class Mail on Air Transportation —
Assignment by Weight (Project Number 12XG012NL000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Jody J. Troxclair, director,
Transportation, or me at 703-248-2100.

Attachments

cc: Patrick R. Donahoe
    Megan J. Brennan
    Cynthia F. Mallonee
    Corporate Audit and Response Management
First-Class Mail on Air Transportation —                                                                           NL-AR-12-010
  Assignment by Weight



                                               TABLE OF CONTENTS


Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

First-Class Mail Assignment ............................................................................................ 1

Recommendation ............................................................................................................ 4

Management’s Comments .............................................................................................. 4

Evaluation of Management’s Comments ......................................................................... 4

Appendix A: Additional Information ................................................................................. 5

   Background ................................................................................................................. 5

   Objective, Scope, and Methodology ............................................................................ 6

   Prior Audit Coverage ................................................................................................... 7

Appendix B: Monetary Impacts ....................................................................................... 8

   Analysis Considerations .............................................................................................. 9

Appendix C: Management’s Comments ........................................................................ 11
First-Class Mail on Air Transportation —                                    NL-AR-12-010
  Assignment by Weight



Introduction

This report presents the results of our audit of First-Class Mail (FCM) on air
transportation — assignment by weight (Project Number 12XG012NL000). Our
objective was to assess FCM assignments to air transportation by container (individual
handling unit) weight. The U.S. Postal Service Office of Inspector General (OIG)
initiated this audit, which addresses operational risk. See Appendix A for additional
information about this audit.

The Postal Service contracts with select air carriers to transport some FCM in order to
meet service standards. The carriers include FedEx®, United Parcel Service® (UPS),
and selected commercial passenger airlines (CAIR). The Postal Service pays FedEx by
the cubic foot and pays UPS and participating commercial passenger airlines by the
pound. The Postal Service does not currently consider the weight or density1 of each
individual handling unit (letter trays and flat tubs) when assigning FCM to air
transportation. Instead, FCM is generally assigned to UPS first, then to CAIR, and to
FedEx last. FCM is assigned to UPS first to ensure that contract minimums are met and
to CAIR second because they are the least expensive suppliers of air transportation.

Conclusion

The Postal Service can assign some FCM to air transportation in a more cost-effective
manner. If weight was considered, heavier weighted trays and tubs of mail would be
assigned to FedEx, with lighter trays and tubs assigned to UPS and commercial
passenger air carriers. Our analysis also showed that the Postal Service could still
maintain contract commitments and service if reallocated and commercial carriers
would lose some mail. We determined that the Postal Service did not use this allocation
method because it did not consider the weight of the mail to be a priority in the
assignment process.

Further, we determined the Postal Service has an opportunity to save about $10 million
in transportation costs over the next year by assigning FCM to air transportation
considering weight.

First-Class Mail Assignment

The Postal Service can assign some FCM to air transportation in a more cost-effective
manner. Specifically:

     Using their existing priority scheme resulted in the Postal Service paying higher
      prices to move some FCM, with some lighter mail going on FedEx, which charges by


1
    Pounds per cubic foot.
                                            1
First-Class Mail on Air Transportation —                                                               NL-AR-12-010
  Assignment by Weight


    the cubic foot, and some heavier mail going on UPS and CAIR, which charge by the
    pound.

   If the Postal Service considered weight as a priority in their assignment process it
    could realize cost savings, mainly from significantly reduced volumes on commercial
    carriers. In addition, slightly higher volumes and lighter weight trays and tubs of mail
    would go to UPS and heavier trays and tubs would go to FedEx (maximizing cubic
    feet in individual trays and tubs). Our analysis also showed that overall cost savings
    would far outweigh any additional costs and the Postal Service would still be able to
    maintain contractual commitments and service.

We analyzed how the Postal Service assigns mail to carriers in terms of cubic feet and
pounds for the period April 1, 2010 through March 31, 2012. Figure 1 compares
assignment of this mail in cubic feet under the existing process to assignment of this
mail when considering weight in the second year of the 2-year period analyzed. It shows
that FedEx, which charges by the cubic foot, would receive slightly more volume (with
heavier trays and tubs) which protects its mandated contract minimums.

          Figure 1. Existing Method of Assignment vs. Assignment by Weight
                                     (by Cubic Foot)2
                              April 1, 2011–March 31, 2012




                  Source: OIG using Postal Service assignment data.

Figure 2 shows the Postal Service can assign FCM to UPS based on the weight of
individual letter trays and flat tubs, with the weight changing very little (or slightly more
with lighter trays and tubs) in order to protect its mandated contract minimums.




2
 The blue bars indicate the mail as currently assigned and the red bars indicate the mail if the assignment method is
modified to consider weight.


                                                          2
First-Class Mail on Air Transportation —                                                                NL-AR-12-010
  Assignment by Weight



                  Figure 2. Assigned Pounds vs. Assigning Mail by Weight
                                         (in Pounds) 3
                                April 1, 2011–March 31, 2012




                     Source: OIG using Postal Service assignment data.

This condition occurred because the existing assignment process does not consider
overall handling unit weight. The Postal Service employs a logic for assigning FCM to
air transportation for each operating day during which the mail is assigned (based on
the time of day) in a ‘one-two-three’ order that generally places UPS first, CAIR second,
and FedEx third. The process considers contract minimums and the overall price of
commercial carriers. In addition, under the existing process, heavier mail is typically
assigned to UPS and CAIR and lighter mail to FedEx based on the arrival profile of
FCM deposited by mailers (usually early in the operating day with full or heavy trays and
tubs) and the processing profile of Postal Service plant distribution operations (later in
the operating day with lighter trays and tubs).

We determined the Postal Service could have saved an average of about $11 million
annually in transportation costs over the 2-year period ending March 31, 2010, had it
assigned FCM considering weight and invested about $500,000 in mail assignment
system programming changes4 that would allow assignment in this manner without
negatively impacting service. Further, if weight is considered when assigning FCM to air
transportation in the future, the Postal Service could avoid costs of about $10 million
over the next year. See Appendix B for details of our analyses and a categorization of
monetary impact, including adjustments due to prior OIG audit findings and discussion
of associated service impact concerns.




3
  The blue bars indicate the mail as currently assigned and the red bars indicate the mail if the assignment method is
modified to consider weight.
4
  The amount the Postal Service would have to spend in order to include weight as a factor in the assignment
process. Postal Service data system experts specializing in programming solutions in the area of mail assignment
have estimated the cost of additional programming and logic/software modifications to be as much as $500,000 to
accomplish assignment by weight, as recommended in this report. We did not validate the estimates.


                                                          3
First-Class Mail on Air Transportation —                                      NL-AR-12-010
  Assignment by Weight


Recommendation

We recommend the vice president, Network Operations:

1. Modify the assignment process to assign First-Class Mail to air transportation
   considering weight where feasible, with heavier mail being assigned to FedEx and
   lighter mail being assigned to the United Parcel Service and commercial passenger
   air carriers, while considering contractor service performance and future air
   transportation contract requirements.

Management’s Comments

Management agreed with our finding and recommendation. Management stated that
weight should be a criterion in the air mail assignment system in order to assign lighter
weight First-Class Mail to networks where USPS pays by the pound and heavier weight
First-Class Mail to FedEx where USPS pays by the cubic foot. Network Operations is in
the process of streamlining the end-to-end air planning and mail assignment process
through extensive system changes and system centralization. Management said that
they will evaluate this recommendation after Network Operations completes the
activities associated with streamlining the end-to-end air planning and assignment
process. See Appendix C for management’s comments in their entirety.

In subsequent correspondence, management stated they disagreed with the monetary
impact because of the limited information in the report.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation and
the corrective actions taken should address the issue identified in this report. The OIG
also understands that the completion of streamlining the end-to-end air planning and
mail assignment process through extensive system changes and system centralization
is necessary before the implementation of our recommendation.

Regarding our monetary impact, we believe the calculated projections are appropriate
and reasonable based on the information available. We acknowledge that costs to
implement the recommended change may impact the final amount because of ongoing
system changes as stated by management. We will provide our detailed monetary
impact analysis and continue to work with management in reaching agreement on the
projected savings as part of the process for closing the recommendation.

The OIG considers the recommendation significant and, therefore, requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective action is completed. This recommendation should not be closed in the Postal
Service’s follow-up tracking system until the OIG provides written confirmation that the
recommendation can be closed.




                                            4
First-Class Mail on Air Transportation —                                                            NL-AR-12-010
  Assignment by Weight



                                 Appendix A: Additional Information

Background

Postal Service policy requires managers to balance service and cost in transporting
mail, including mail transported by air. The Postal Service uses criteria other than
weight to assign mail to air transportation that considers contract minimums and overall
price of carriers. The Postal Service contracts with several air carriers to transport mail
across the country to meet service standards. The carriers include FedEx; UPS; and
selected commercial passenger airlines such as Delta, United, and Continental Airlines.
The Postal Service spent $488 million in FY 2011 shipping FCM by air.

                   Figure 3. Delta Airlines is one of the CAIR Providers
                   the Postal Service Contracts with to Transport Mail




                 U.S. mail waiting to be loaded onto a Delta Airlines jet for transport at the
                 Hartsfield-Jackson International Airport. Source: OIG


FedEx charges the Postal Service by the cubic foot, while UPS and commercial
passenger airlines charge by the pound. For FY 2011, the average cost paid to FedEx
was $7.78 per cubic foot, while the average cost paid to UPS was $0.50 cents per
pound, and the average cost paid to CAIR was $0.40 cents per pound.

The Postal Service assigns carriers based on availability, with FCM assigned to UPS
first, then CAIR, and finally FedEx,5 without regard to mail density or weight.6 The
reason for assigning FCM to UPS first is to ensure that contract-guaranteed minimum
volumes are met. CAIR is assigned second because they are generally less costly than
FedEx. There are 78 origin air stops in the United States where the Postal Service

5
  UPS and CAIR are not available modes of transportation at all origin air stops – some have only FedEx, some have
FedEx and UPS, some have FedEx and CAIR, and some have all three.
6
  The Postal Service conducted a pilot during 2008-2009 in Dulles, VA which espoused a concept of assigning FCM
based on the density of the letter tray or flat tub, using a combination hardware/software solution which proved
possible potential savings. The program was not adopted after the close of the pilot.


                                                           5
First-Class Mail on Air Transportation —                                                           NL-AR-12-010
  Assignment by Weight


tenders FCM for air transportation.7 Of these, 58 tender to multiple modes8 of air
transportation, 47 are UPS origin airstops, and 20 origins tender only to FedEx.9

Objective, Scope, and Methodology

Our objective was to assess FCM assignments to air transportation by container weight.
To accomplish our objective, we interviewed officials from Postal Service Network
Operations at headquarters and computer specialists, as well as programmers who
maintain the mail assignment system for the Postal Service. We also evaluated the
types and characteristics of FCM transported on air networks, considered on-time
service standards, analyzed systemic causes for FCM not assigned to the least costly
mode of air transportation, and analyzed alternative solutions for making the best use of
the Postal Service’s mail assignment system.

We also examined and analyzed relevant documents, including:

   Postal Service contracts with FedEx, UPS, and CAIR.
   Postal Service policies governing processing and dispatch operations.
   Postal Service policies governing assignment of FCM to air transportation.

We analyzed FCM flown for the period April 1, 2010 through March 31, 2012 and
identified cost-saving opportunities if weight was considered when assigning FCM to air
transportation. We considered only routes with two or more modes of air transportation,
guaranteed contract minimums, and established cut-offs (weight limits) for FCM to be
assigned to the different air carriers. While developing the cut-offs, we ensured the
Postal Service would maintain at least the same number of cubic feet on FedEx and at
least the same amount of weight on UPS to meet the contract minimums. The cut-offs
we used, per tray or tub, were 15 pounds or more for mail to be assigned to FedEx, 12
to 14 pounds for CAIR, and 11 or less pounds for UPS.

We examined computer-generated data for a 2-year period from April 1, 2010 through
March 31, 2012 to analyze mail volume, operational efficiency, and costs. We did not
audit or comprehensively validate the data; however, the large amount of data, its
untimely accessibility, and lengthy analytical processes significantly constrained our
work.

To address these data limitations, we applied alternative procedures. We used the Audit
Command Language10 program to analyze millions of data records for FCM assigned to
air transportation for the aforementioned 2-year period. We discussed the data with
Postal Service senior officials, managers, and employees; and validated the data from

7
  According to the Postal Service’s National Traffic Management System (NTMS) database (on the Postal Service’s
web site) for Quarter 1, FY 2012.
8
  The three modes of air transportation analyzed and discussed in this report are FedEx, UPS, and commercial
passenger airlines.
9
  FCM is tendered to FedEx at all 78 origin air stops.
10
   Audit Command Language, also known as ACL®, is audit analytic software used by a wide range of industry and
government sector audit organizations to analyze 100 percent of large data populations.


                                                        6
First-Class Mail on Air Transportation —                                     NL-AR-12-010
  Assignment by Weight


our observations and physical inspections conducted during our previous audits
concerning Postal Service operations related to FedEx and the density of FCM
transported by air. We also discussed our initial findings and recommendations with
senior Postal Service management, considered their perspective, and included their
comments where appropriate.

We conducted this performance audit from February through September 2012, in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on August 28, 2012, and included their
comments where appropriate.

Prior Audit Coverage

Our previous audit, Density of First-Class Mail on Air Transportation (Report Number
NL-AR-12-003, dated March 12, 2012), identified efficiency opportunities related to the
processing of FCM and reducing the number of letter trays and tubs being transported
by air. The Postal Service generally agreed to our audit findings and recommendations
with a monetary impact of $267 million.




                                           7
First-Class Mail on Air Transportation —                                                               NL-AR-12-010
  Assignment by Weight



                                    Appendix B: Monetary Impacts

           Recommendation                      Impact Category                              Amount
                 1                      Questioned Costs11                                 $22,200,308
                 1                      Fund Put to Better Use12                             9,968,164
               Total                                                                       $32,168,472

Table 1 shows our analysis of the current assignment process versus assignment by
container weight for the period April 1, 2010 through March 31, 2012. We determined
that the Postal Service could have saved more than $22 million in transportation costs
over this 2-year period had it assigned FCM considering weight.

        Table 1. Past Costs and Savings Analysis of Assigning Mail by Weight

                                                  Estimated
                                      Costs if    Gross                       Adjustment          Net Total
      Carrier      Original           Assigned by (Costs) and                 to Cost             (Costs) and
     (Year 1)      Costs13            Weight      Savings                     Savings14           Savings

      FedEx        $57,058,512        $58,232,367   $(1,173,855)  $(8,263,427) $(9,437,282)
      CAIR          45,585,281         19,862,848    25,722,433     1,296,606   27,019,039
       UPS          29,254,779          33,576,314   (4,321,535)     (528,078)  (4,849,613)
                                                        Estimated
                                           Costs if         Gross Adjustment        Net Total
      Carrier            Original      Assigned by    (Costs) and       to Cost  (Costs) and
     (Year 2)              Costs            Weight        Savings      Savings       Savings
         :
      FedEx         $55,488,928         $57,908,725           $(2,419,797)     $(8,433,646)       $(10,853,443)
       CAIR          34,608,325          15,162,874            19,445,452         3,060,685          22,506,137
       UPS           25,463,510          26,889,237            (1,425,727)        (258,803)         (1,684,530)

     Implementation Costs                                                                           $(500,000)15
     Total   $247,459,335             $211,632,364         $35,826,971        $(13,126,663)         $22,200,308




11
   Unnecessary, unreasonable, unsupported, or an alleged violation of law, regulation, or contract. May be
recoverable or unrecoverable. Usually a result of historical events.
12
   Funds that could be used more efficiently by implementing recommended actions. To be conservative, we limited
this calculation to 1 future year.
13
   This represents a subset of the overall FCM transported by air, the handling units of which apply directly to the
subject and criteria of this audit.
14
   Adjustments were made to estimated cost savings in Table 1 because the same data was used in our prior audit,
Density of First-Class Mail on Air Transportation (Report Number NL-AR-12-003, dated March 12, 2012).
15
   The amount the Postal Service would have to spend in order to include weight as a factor in the assignment
process. Postal Service data system experts specializing in programming solutions in the area of mail assignment
have estimated the cost of additional programming and logic/software modifications to be as much as $500,000 to
accomplish assignment by weight, as recommended in this report. We did not validate the estimates.


                                                          8
First-Class Mail on Air Transportation —                                                                 NL-AR-12-010
  Assignment by Weight


Analysis Considerations

Due to the complexities of assigning mail to air transportation (volume variables, service
impacts, and costs of multiple transportation suppliers), we took the following steps in
our analysis process:

    We considered only FCM letter trays and flat tubs on lanes (origin and destination
     pairs) where multiple modes of air transportation existed (FedEx plus CAIR, FedEx
     plus UPS, UPS plus CAIR, or all three).

    We considered alternate assignments only where mail was assigned to more than
     one air transportation mode on individual operating days.

    We only calculated mail actually assigned and transported and not based on
     availability of multiple modes.

    We excluded all mail originating in Sacramento, CA, Salt Lake City, UT, and
     Hartford, CT in order to protect service due to the intense complexities associated
     with the highly variable volumes of large mailers in these locations.16

For example, if routes were available in the assignment system but no mail was
assigned to CAIR due to past unacceptable on-time performance, then CAIR was not a
place for the mail to be moved or a candidate for accepting the mail from one of the
other modes. If all of the mail on any particular lane was assigned to FedEx and none to
UPS or CAIR, then none would be moved to UPS or CAIR because no mail was
assigned to these routes during that operating day. Poor performing lanes on any mode
with no mail assigned on an operating-day basis were not candidates in our analysis to
accept switched mail.

Furthermore, the weight reduction in FCM assigned to CAIR, as reflected in the dollar
value ($22.5 million) shown in Table 2, represents about 22 percent of the FCM
transported by CAIR; therefore, any exposure to a lower performing mode17 is reduced
by the same percentage. If weight or density is considered when assigning FCM to air
transportation in the future, the Postal Service could avoid about $10 million over the
next year18 as shown in Table 2.




16
   Postal Service officials responsible for the movement of FCM by air transportation, on a national basis, requested
that we exempt these three origins early in our audit process due to the possible service impacts of placing this highly
variable volume of mail (which varies greatly from day to day and during certain seasonal peaks) into a rigid
assignment logic. They maintain that they have to intervene in the current assignment process on a regular basis in
order to avoid delays of significant volumes of FCM.
17
   Postal Service Headquarters officials assert that CAIR is the lowest performing mode of air transportation based
upon their contractual on-time performance data, both current and historical.
18
   This future 1-year cost savings estimate is based on the existing contract terms in place for the flight of FCM on
CAIR, FedEx, and UPS. We acknowledge that future savings could be affected by the future terms, conditions, and
pricing of contracts providing air transportation services to the Postal Service,


                                                           9
First-Class Mail on Air Transportation —                                                           NL-AR-12-010
  Assignment by Weight


            Table 2. Future Annual Costs and Savings Analysis of Assigning
                                    Mail by Weight

                                    Cost if                           Adjustment            Net Total
                   Original    Assigned by                 Cost           to Cost         (Costs) and
Carrier              Costs          Weight              Savings        Savings19             Savings

FedEx         $55,488,928       $57,908,725        $(2,419,797)      $(8,433,646)       $(10,853,443)
CAIR           34,608,325        15,162,874         19,445,452          3,060,685          22,506,137
UPS            25,463,510        26,889,237         (1,425,727)         (258,803)         (1,684,530)
Total                                                                                      $9,968,164




19
  Adjustments were made to estimated cost savings in Table 2 because the same data was used in our prior audit,
Density of First-Class Mail on Air Transportation, (Report Number NL-AR-12-003, dated March 12, 2012).


                                                       10
First-Class Mail on Air Transportation —                        NL-AR-12-010
  Assignment by Weight


                            Appendix C: Management’s Comments




                                           11
First-Class Mail on Air Transportation —        NL-AR-12-010
  Assignment by Weight




                                           12
